APPENDIX
A.
Memorandum Opinion of the United
States Court of Appeals for the Ninth Circuit, filed
February 21, 2020.
B.
Minute Order Granting Summary
Judgment of the United States District Court for the
Central District of California, filed October 6, 2017.
C.
United States Supreme Court Order
dated March 19, 2020, extending deadline to file petitions for writ of certiorari in light of the Covid-19
pandemic.
D.
Pages 331 – 337 from the Excerpts of
the Record filed in the Ninth Circuit on April 20,
2018.

App. 1
APPENDIX – PART A
804 Fed. Appx. 497, 2020 U.S. App. LEXIS 5543
Notice: Please refer to Federal Rules of Appellate
Procedure 32.1 governing the citation to unpublished
opinions.
United States Court of Appeals for the Ninth
Circuit
IV SOLUTIONS, INC., a California corporation,
Plaintiff-Appellant,
v.
PACIFICARE LIFE & HEALTH INSURANCE
CO., an Indiana corporation; DOES, 1-30, inclusive,
No. 17-56609
Argued: January 8, 2020
Filed: February 21, 2020
Before: WATFORD and BENNETT, Circuit
Judges, and SILVER**, District Judge.

** The Honorable Jed S. Rakoff, United States District
Judge for the Southern District of New York, sitting by designation.

App. 2
[*498] MEMORANDUM*
IV Solutions, Inc. (“IVS”) appeals the district
court’s grant of summary judgment on its breach of
contract claim in favor of PacifiCare Life & Health
Insurance Co. (“PacifiCare”). IVS also appeals the
district court’s denial of leave to amend its complaint. We have jurisdiction under 28 U.S.C. § 1291,
and we affirm. As the [*499] parties are familiar
with the facts, we do not recount them here.
We review de novo a district court’s grant of
summary judgment. See Sonner v. Schwabe N. Am.,
Inc., 911 F.3d 989, 992 (9th Cir. 2018). Summary
judgment is appropriate when, viewing the evidence
in the light most favorable [**2] to the nonmoving
party, “there is no genuine issue of material fact to
be determined at trial.” Hernandez v. Spacelabs
Med. Inc., 343 F.3d 1107, 1112 (9th Cir. 2003). We
review a district court's denial of leave to amend for
abuse of discretion. See Bonin v. Calderon, 59 F.3d
815, 845 (9th Cir. 1995).
IVS brought a breach of contract claim, alleging
that, based on a third-party beneficiary theory,
PacifiCare had a contractual duty to pay IVS for services that IVS provided to PacifiCare’s insured. The
district court determined that IVS’s breach of contract claim for all but one of its claims for payment
(i.e., Claims ‘215 and ‘245—‘252) was barred by the
four-year statute of limitations. See Cal. Civ. Proc.
Code § 337(a). The parties agree that the four-year
statute of limitations applies, but they disagree over
when it started to run.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 3
The limitations period started running when
PacifiCare unequivocally denied IVS’s claims for
payment. See Vishva Dev, M.D., Inc. v. Blue Shield of
Cal. Life & Health Ins. Co., 2 Cal. App. 5th 1218, 207
Cal. Rptr. 3d 185, 189 (Ct. App. 2016). We agree
with the district court that PacifiCare’s Explanation
of Benefits (“EOBs”) for Claims ‘215 and ‘245-‘252
were unequivocal denials. The EOBs contained clear
language communicating that PacifiCare was denying the claims for payment, and nothing in the EOBs
suggested that the denials were conditional or tentative. We therefore hold that IVS’s breach of contract
claim based on Claims ‘215 [**3] and ‘245-‘252 is
time-barred because the EOBs for those claims were
unequivocal denials, and IVS filed suit more than
four years after the date of the last EOB.
IVS’s arguments to the contrary are unavailing.
First, IVS argues that the EOBs were not unequivocal denials because they instructed IVS to “review
the procedure codes” and “notify [PacifiCare] if any
unusual treatments were performed or if there is additional information clarifying the services and/or
charges.” But as the district court correctly noted,
PacifiCare did not condition its denial of IVS’s claims
on the receipt of new information, and its willingness
to consider such information did not render its denial
equivocal. See Vishva Dev, 207 Cal. Rptr. 3d at 190.
Second, IVS argues that the district court failed to
consider its equitable tolling argument based on
PacifiCare’s communications that it was reprocessing
the claims. But the district court did consider this
argument, and it determined that, even if the limitations period were equitably tolled for the five months
during which PacifiCare was reprocessing the claims
(from August 2012 to January 2013), the breach of

App. 4
contract claim based on Claims ‘215 and ‘245-‘252
would still be barred. IVS fails [**4] to show that this
conclusion was erroneous. Third, IVS points out that
in ruling on the motion to dismiss, the district court
reached a contrary result – it determined that the
EOBs were not unequivocal denials. But other than
pointing out this fact, IVS does not present any legal
authority or argument showing that the prior decision binds the district court or this court.
We also hold that the district court correctly determined that equitable estoppel does not apply to
IVS’s time-barred claims. Under California law, equitable estoppel does not apply when a plaintiff has
ample time to sue after the conduct that has induced
it to delay its suit ends. See, e.g., Mills v. Forestex
Co., 108 Cal. App. 4th 625, 134 Cal. Rptr. 2d 273, 298
(Ct. App. 2003). [*500] PacifiCare’s conduct that allegedly induced IVS to delay its suit ceased about
three years before the limitations period lapsed.
Three years was more than ample time for IVS to
sue, and therefore equitable estoppel does not apply.
See Lobrovich v. Georgison, 144 Cal. App. 2d 567, 301
P.2d 460, 464 (Cal. Ct. App. 1956).
As for IVS’s breach of contract claim for its one
remaining claim for payment (i.e., Claim ‘185), the
district court determined that the claim failed because IVS was not a third-party beneficiary under
the operative 2007 contract. A third party may enforce a contract if he is an intended beneficiary [**5]
of the contract. See Cal. Civ. Code § 1559. “A third
party may qualify as a beneficiary under a contract
where the contracting parties must have intended to
benefit that third party and such intent appears on
the terms of the contract.” Jones v. Aetna Cas. &

App. 5
Sur. Co., 26 Cal. App. 4th 1717, 33 Cal. Rptr. 2d 291,
295 (Ct. App. 1994).
We agree with the district court that, under the
express terms of the 2007 contract, IVS was not an
intended third-party beneficiary. IVS, however, argues that there is a material factual dispute over
whether the operative agreement is the 2007 contract or a 2010 contract. In reviewing this argument,
we are limited to the summary judgment record presented to the district court. See Lippi v. City Bank,
955 F.2d 599, 604 (9th Cir. 1992).
PacifiCare submitted evidence supporting that
the operative agreement was the 2007 contract. In
its opposition to summary judgment, IVS mentioned
the existence of the 2010 contract and provided a
heavily redacted copy of the 2010 contract, but it
failed to explain why this was the operative agreement and how this agreement affected its claims.
This was insufficient to create a genuine factual dispute.1 See Hernandez, 343 F.3d at 1112 (stating that
nonmoving party “cannot defeat summary judgment
with allegations in the complaint, or with unsupported conjecture or conclusory statements”). Thus, the
district court correctly [**6] determined that IVS’s
breach of contract claim as to Claim ‘185 fails because it was not an intended third-party beneficiary
under the 2007 contract.
1 After oral argument, we ordered supplemental briefing on the applicability of the 2000 contract. The parties’ supplemental briefs and supporting documents reveal that Pacificare had produced a largely unredacted
copy of the 2010 contract days before it moved for summary judgment.
IVS failed to review the document production before filing its opposition.
But even after IVS realized that it had a copy of the largely unredacted
2010 contract, it did not seek any relief from the district court.

App. 6
Finally, IVS argues that the district court abused
its discretion by denying it leave to amend its complaint. But we agree with the district court that
IVS’s proposed amendments would not save its timebarred claims. The district court also found that
IVS’s proposed amendments would not save its
breach of contract claim based on Claim ‘185, and
IVS does not dispute that finding on appeal. Because
IVS’s proposed amendments would be futile, the district court did not abuse its discretion. See Bonin, 59
F.3d at 845.
AFFIRMED.2

2 We GRANT Pacificare’s motion to seal Exhibits 1 and 3 attached to the
Declaration of Rebecca Paradise. Dkt. No. 51. We also GRANT IVS’s
request to take judicial notice of Exhibits 1 and 3 attached to the Declaration of Eric Levinrad, Dkt. No. 56, which are the corporate Statements of
Information for Viant, Inc. and Viant Payment Systems, Inc., filed with
the California Secretary of State. See Fed. R. Evid. 201.

App. 7
APPENDIX – PART B
Not Reported in Fed. Supp., 2017 WL 4541163
United States District Court for the Central District of California
IV SOLUTIONS, INC., Plaintiff,
v.
PACIFICARE LIFE AND HEALTH
INSURANCE CO., Defendant.
Case No. CV 16-07153 SJO (MRWx)
Decided/Filed: October 6, 2017
Opinion by: S. JAMES OTERO, United States
District Judge.
[*1] ORDER (1) DENYING PLAINTIFF’S
MOTION FOR LEAVE TO FILE SECOND
AMENDED COMPLAINT [Docket No. 34]; (2)
GRANTING DEFENDANT’S MOTION FOR
SUMMARY JUDGMENT [Docket No. 36]
This matter is before the Court on (1) Plaintiff IV
Solutions, Inc.’s (“IVS” or “Plaintiff”) Motion for
Leave to File Second Amended Complaint (“MFL”),
filed August 21, 2017; and (2) Defendant PacifiCare
Life and Health Insurance Company's (“PacifiCare”
or “Defendant”) Motion for Summary Judgment
(“MSJ”), filed August 21, 2017. PacifiCare opposed
the MFL (“MFL Opposition”) on September 1, 2017,
and IVS replied (“MFL Reply”) on September 11,

App. 8
2017. IVS opposed the MSJ (“MSJ Opposition”) on
September 1, 2017, and PacifiCare replied (“MSJ Reply”) on September 11, 2017. The Court found this
matter suitable for disposition without oral argument and vacated the hearing set for September 25,
2017. See Fed. R. Civ. P. 78(b). For the following reasons, the Court DENIES Plaintiff’s MFL and
GRANTS Defendant’s MSJ.
I.
FACTUAL
AND
PROCEDURAL
BACKGROUND
A. Procedural Background
IVS initiated the instant insurance dispute in the
Superior Court of the State of California for the
County of Los Angeles on August 11, 2016. (See Notice of Removal, Ex. B (“Complaint”), ECF No. 1.)
PacifiCare removed the action to this Court on September 22, 2016. (See Notice of Removal.) IVS asserted four causes of action against PacifiCare, including (1) fraud; (2) breach of contract; (3) breach of
an implied-in-fact contract; and (4) quasi contract.
(See Compl. ¶¶ 29–54.)
PacifiCare moved to dismiss the Complaint on
October 28, 2016, and the Court, after considering
the pleadings and moving papers, dismissed without
leave to amend Plaintiff’s third and fourth claims for
breach of an implied-in-fact contract and quasi contract. (See Mot. to Dismiss, ECF No. 12; Order
Granting in Part & Den. in Part Defendant's Mot. to
Dismiss (“Dismissal Order”), ECF No. 20.) The
Court also dismissed Plaintiff’s first claim for fraud
but granted leave to amend. (Dismissal Order 10.)
Plaintiff responded by filing the First Amended
Complaint (“FAC”) on December 29, 2016, reasserting the claims for fraud and breach of contract. (See

App. 9
generally FAC.) Plaintiff filed the MFL on August
21, 2017, seeking leave to amend its claim for breach
of contract to newly assert the theory that MultiPlan
acts as the agent for health insurers which are its
clients. (MFL, ECF No. 34.) Defendant filed the
MSJ on the same day, seeking to dismiss Plaintiff’s
remaining claims for fraud and breach of contract.
(MSJ, ECF No. 35.) The parties subsequently filed a
stipulation to withdraw the claim for fraud on September 12, 2017, which was granted by the Court on
September 14, 2017. (Stipulation to Withdraw, ECF
No. 47; Order Consenting to Withdrawal of Claim for
Relief, ECF No. 49.) Only the claim for breach of
contract remains.
B. Undisputed Facts
The following facts are either not in genuine dispute or are viewed in the light most favorable to IVS,
the nonmovant.
[*2] PacifiCare is a health insurance company affiliated with United Healthcare Insurance Company
(“United”). (Plaintiff’s Statement of Genuine Disputes of Material Fact (“PSF”) ¶ 1, ECF No. 44–17.)
Prior to having its license revoked by the State of
California, IVS was a California-based clinical home
infusion pharmacy. (PSF ¶ 3.) IVS, an “out-ofnetwork” provider not contracted in any way with
PacifiCare, charged 50 times average wholesale price
(“AWP”) for the drugs and services it provided to patients. (PSF ¶¶ 4, 6.)
1. IVS Submits Claims to Pacificare
In June 2011, one of PacifiCare’s members (hereinafter “CM”) obtained a prescription from her oncologist for total parenteral nutrition (“TPN”), an intravenously administered nutritional formula composed

App. 10
of proteins, electrolytes, fluid, sodium, potassium,
and vitamins. (PSF ¶ 20.) CM’s oncologist, unaware
of IVS’ inflated prices, referred the prescription to
IVS. (PSF ¶¶ 21–23.) IVS sent a bill of charges to
PacifiCare for services rendered to CM between June
4 and July 11 of 2011, which PacifiCare paid in full
on September 14, 2011. (See Decl. Marlene Casillas
in Opp’n to MSJ (“Casillas Decl.”), Ex. 13 (“First
EOB”), ECF No. 44–12.) The Explanation of Benefits
(“EOB”) sent along with the payment noted that
“[t]he claim was processed according to the contracted rate with TRPN Three Rivers Provider Network.”
(First EOB 13.)
PacifiCare began to review the claims submitted
by IVS with the assistance of ProPeer Resources, an
independent review organization. (PSF ¶ 27.) At
some point after September 2011, PacifiCare became
aware that IVS’ billed charges substantially exceeded
PacifiCare’s usual and customary out-of-network reimbursement rates. (PSF ¶ 28.)
On or around November 9, 2011, IVS billed
PacifiCare approximately $922,000 for services rendered to CM between August 12 and October 4, 2011
(the “ ‘245–‘252 claims”). (PSF ¶¶ 26, 29.) Rather
than pay the bill in full, PacifiCare used FAIR
Health’s Relative Value (“RV”) Benchmark methodology to determine the usual and customary rate for
the services provided by IVS. (PSF ¶ 32.) This total
came out to $92,641.55, which PacifiCare paid to IVS
on January 19, 2012. (PSF ¶ 33; Decl. Amy Gildernick in Supp. of MSJ (“Gildernick Decl.”), Ex. B
(“Second EOB”), ECF No. 37–1.) Accompanying the
check was an EOB which set forth, on a claim-byclaim basis, what IVS charged, what PacifiCare paid,
and an explanation for any discrepancy between the

App. 11
charge and the payment. (PSF ¶ 34; Second EOB 4–
29.) The explanations for the discrepancies included
in relevant part that the “charge is more than the
Maximum Allowable Charge or Usual and Customary amount payable by the plan. Please review the
procedure codes and notify us if any unusual treatments were performed or if there is additional information clarifying the services and/or charges.” (PSF
¶ 35; Second EOB 28.) The EOB also stated that “[i]f
you believe the claim has been wrongly denied or rejected, you may have the matter reviewed by the California Department of Insurance” and that “you have
the right to dispute” any denial of benefits “by submitting a written request” to PacifiCare. (PSF ¶¶
36–38; Second EOB 29.)
PacifiCare also issued several other EOBs to IVS
during this time period. One EOB, issued October
31, 2011, concerned two separate claims made by IVS
to Pacificare: (1) a claim for services rendered to CM
on July 11, 2011 (the “ ‘185 claim”) totaling
$17,874.40; and (2) a claim for administration of a
therapy drug to CM on July 2, 2011 (the “ ‘215
claim”) totaling $211,138.51. (Request for Judicial
Notice (“RJN”), Ex. 8 (“Third EOB”), ECF No. 44–
19.)1 PacifiCare denied payment to IVS for the ‘185
claim on the basis that PacifiCare was “unable to determine benefits until we receive the medical rec1 Plaintiff asks the Court to consider in ruling on the MSJ three exhibits
attached to Plaintiff’s RJN, which include two filings in other cases and
an EOB submitted by PacifiCare to this action. (See RJN, ECF No. 44–
18.) As the Court may take notice of proceedings and filings in this court
or other courts, the Court finds consideration of these documents to be
proper under Rule 201 of the Federal Rules of Evidence, and GRANTS
Plaintiff's PRJN. See U.S. ex rel. Robinson Rancheria Citizens Council v.
Borneo, Inc., 971 F. 2d 244, 248 (9th Cir. 1992).

App. 12
ords/billing information requested from the provider.
When this information is received, we will reconsider
the claim for benefits.” (Third EOB 4.) In contrast,
PacifiCare paid IVS $9,875.51 for the ‘215 claim,
again noting that the $211,138.51 “charge is more
than the Maximum Allowable Charge or Usual and
Customary amount payable by the plan.” (Third EOB
4.)
2. IVS’ Efforts to Dispute the EOBs
[*3] On August 31, 2012, the Director of IVS
called United in order to dispute the alleged nonpayment or underpayment of its claims. (See Decl.
Alex Vara in Opp’n to MSJ (“Vara Decl.”), Ex. 1
(“8/31/2012 Tel. Tr.”), ECF No. 44–2.)2 Of the relevant claims, IVS first inquired about the ‘185 claim.
(8/31/2012 Tel. Tr. 4–7.) When asked why the ‘185
claim was denied, the United representative stated,
“They said they need medical records and it doesn’t
2 PacifiCare objects to the admission of the transcripts of telephone calls
between IVS’ Director and several United Employees, which are attached
as Exhibits 1–5 of the Vara Declaration, on the following grounds: (1)
these transcripts constitute inadmissible hearsay under Federal Rule of
Evidence (“FRE”) 801; and (2) these transcripts are irrelevant under FRE
402. The Court disagrees as to each of these objections. First, these messages constitute an opposing party's statement offered against that party
and are therefore not hearsay, as these statements were made by United
employees acting within the scope of their employment. See Fed. R.
Evid. 801(d)(2)(A). Second, PacifiCare does not allege that these phone
calls did not occur or that the transcripts are inaccurate, but merely that
they are irrelevant to whether or not Plaintiff’s claims were actually being
reprocessed. However, evidence that United employees stated that the
claims were being reprocessed is exactly relevant to whether or not they
actually were being reprocessed, as well as to Defendant’s belief or reliance on the belief that they were being reprocessed. Therefore, Defendant’s objections to Exhibits 1–5 of the Vara Declaration are
OVERRULED.

App. 13
look like they got ‘em for that date of service.”
(8/31/2012 Tel. Tr. 6.) After IVS insisted that every
single claim it sent out had the same medical records, the United representative responded that “what
I need to do is have a claims analyst give you a call.”
(8/31/2012 Tel. Tr. 6.) The United representative
then asked IVS to list all of the disputed claims so
that the claims analyst could locate them. (8/31/2012
Tel. Tr. 6.) IVS listed at least one of the ‘245–‘252
claims. (8/31/2012 Tel. Tr. 8.)
IVS followed up with United on September 7,
2012. (Vara Decl., Ex. 2 (“9/7/2012 Tel. Tr.”), ECF
No. 44–3.) United again informed IVS that it did not
process the ‘185 claim because they “were unable to
determine benefits until we receive the medical records, billing information, requested from the provider.” (9/7/2012 Tel. Tr. 2.) IVS insisted that “it’s the
same medical records, same diagnosis” as the other
submitted claims, and the United representative
agreed to “put that one back through.” (9/7/2012 Tel.
Tr. 2.) IVS also stated that “None of [the ‘245–‘252
claims] were processed per our contract,” and the
United representative also agreed to “put those back
through.” (9/7/2012 Tel. Tr. 2–3.)
IVS again followed up with United on October 1,
2012. (Vara Decl., Ex. 3 (“10/1/2012 Tel. Tr.”), ECF
No. 44–4.) The United representative informed IVS
that “[the ‘185 claim] I’m showing still pending, and
[the ‘245–‘252 claims], ah, let’s see what’s going on
there. Okay. Those have been routed on 9/7 for an
adjustment, it looks like they were not paid according to contract.” (10/1/2012 Tel. Tr. 1.)
On October 12, 2012, the United representative
informed IVS that $1,676.76 had been paid to IVS on

App. 14
October 11, 2012 in satisfaction of the ‘185 claim.
(Vara Decl., Ex. 4 (“10/12/2012 Tel. Tr.”), ECF No.
44–5.) When IVS protested that this payment was
too low, the United representative stated that IVS
would need to “send in a letter of appeal.”
(10/12/2012 Tel. Tr. 2.) The United representative
also told IVS that the ‘245–‘252 claims “have not
been reprocessed yet” because “I think they are waiting for the repricing from Multi–Plan.” (10/12/2012
Tel. Tr. 1.)
IVS called United again on October 24, 2012.
(Vara Decl., Ex. 5 (“10/24/2012 Tel. Tr.”), ECF No.
44–6.) The United representative told IVS that she
wasn’t sure why the adjustment for the ‘245–‘252
claims had not been completed, and asked IVS to
hold while she checked on it. (10/24/2012 Tel. Tr. 2.)
When she came back, the United representative informed IVS that she “finally found the information as
to why these claims were priced the way they were,”
the reason being that “this was reviewed with our
legal department and the documentation here by our
claims director has indicated that per review with
the legal department that they will be processing all
those claims at the non–PPO pricing.” (10/24/2012
Tel. Tr. 3.) When IVS informed the United representative that this was in violation of a contract, the
United representative responded that “I routed an
adjustment back in September, I don’t know what
happened to it.” (10/24/2012 Tel. Tr. 3.) IVS then
asked the representative what they could do “to get
these claims paid properly,” and the representative
responded that she needed to “check with the supervisor who did this review.” (10/24/2012 Tel. Tr. 4.)
[*4] On January 8, 2013, United sent a letter to
IVS stating in relevant part:

App. 15
We received your correspondence dated November 1, 2012, requesting a review of the benefit determination for services rendered to [CM]
on August 12, 2011, through October 4, 2011, by
IV Solutions Home Infusion Pharmacy.
PacifiCare Life and Health Insurance Company underwrites this fully-insured individual
health insurance business.
Your letter indicates that you believe the submitted claims are clean and there were no errors
made. Your letter also indicates that having clarified your billing protocol; there should be no further delay in honoring your contract.
Based on our review, we have determined that
the claims were processed correctly according to
[CM]’s insurance policy; therefore, no additional
benefits are available.
(Vara Decl., Ex. 7 (“1/8/2013 Letter”), ECF No.
44–8.)
2. CM’s Health Plan
At the time relevant to this action, CM was a
member of PacifiCare’s California Individual PPO
plan. (PSF ¶ 2.) CM’s health plan explicitly states
that “Covered Expenses for Non–Participating Providers will not exceed the Usual and Customary
Charges.” (PSF ¶ 9; Decl. Kevin Cornish in Supp. of
MSJ (“Cornish Decl.”), Ex. D (“CM Health Plan”),
ECF No. 38–2.) “Usual and customary charges” were
defined as the lesser of (1) the provider’s usual
charge for its services; or (2) the charge PacifiCare
determined to be the general rate charged by other
providers for similar services in the same geographic
area. (PSF ¶ 10; CM Health Plan.)

App. 16
3. PacifiCare’s Agreement with Concentra/MultiPlan
Effective February 1, 2007, United entered into a
“Vendor Services Agreement” with Concentra Network Services, Inc. (PSF ¶ 12; Decl. Rebecca Paradise in Supp. of MSJ (“Paradise Decl.”), Ex. A (the
“Concentra Agreement”), ECF No. 36–1.) The Concentra Agreement governed the process by which
PacifiCare would price claims for non-contracted,
out-of-network providers. (PSF ¶ 13.) The Concentra Agreement was later assumed by Concentra’s
successor, MultiPlan, Inc. (“MultiPlan”).3 (PSF ¶
13.)
PacifiCare would fax MultiPlan eligible claim
forms submitted by out-of-network-providers. (PSF ¶
13.) If the provider was part of MultiPlan’s network,
MultiPlan would fax PacifiCare pricing information
for those claims pursuant to its arrangement with
the provider. (PSF ¶ 14.) The Concentra Agreement
states that “United shall make commercially reasonable efforts to request [MultiPlan] services on only
those claims that have been determined to be payable and eligible for services. Despite these efforts, if
United determines, at any time during the adjudica3 IVS disputes whether or not the Concentra Agreement is the operative
agreement governing the relationship between PacifiCare and MultiPlan,
citing to a heavily redacted version of a 2010 agreement between United
and MultiPlan that United filed in a different case. (MSJ Opp’n 15; RJN,
Ex. 12, ECF No. 44–21.) IVS does not explain how or whether this new
agreement affects the analysis of its claims, nor does IVS explain why the
full text of this agreement could not have been produced before the close
of discovery on July 24, 2017. Moreover, the agreement cited by IVS
appears to contain many of the same or similar provisions as the Concentra Agreement described herein. The Court therefore finds that this is not
a genuine dispute of material fact foreclosing summary judgment.

App. 17
tion process, that the claim is NOT payable (in part
or in full) or is not eligible for services, United reserves the right, at its sole discretion, to ... finalize
the adjudication of such claim as it deems appropriate.” (Concentra Agreement 16.) The Concentra
Agreement also explicitly stated that “[t]he sole relationship of the parties is that of independent contractor and nothing in this Agreement or otherwise shall
be deemed or construed to create any other relationship, including one of employment, joint venture or
agency.” (Concentra Agreement 9.) Finally, the
Concentra Agreement stated that “[t]his Agreement
shall not provide third parties with any remedy,
cause, liability, reimbursement, claim of action or
other right in law or in equity for any matter governed by or subject to the provisions of this Agreement.” (Concentra Agreement 14.)
4. IVS’ Agreement with Three Rivers
Provider Network/Multiplan
[*5] Effective September 1, 2011, IVS entered into an agreement with MultiPlan. (Casillas Decl., Ex.
9 (the “MultiPlan Agreement”), ECF No. 44–10.)
Under the MultiPlan Agreement, IVS agreed to accept 85–90% of its billed charges as payment for services provided to patients accessed through the MultiPlan Network. (MultiPlan Agreement 15–16.) The
MultiPlan Agreement “requires Clients and/or Users,
as appropriate, to compensate Network Providers for
Covered Services rendered to Participants using only
the Contract Rates, and Client/User shall not use
any other savings or cost-containment arrangement
that otherwise might be available to Client/User, including but not limited to, Client/User’s own usual,
and/or reasonable, and customary criteria.” (MultiPlan Agreement 11.) Client is defined as “an insur-

App. 18
ance company, employer health plan, Taft–Hartley
Fund, or other organization that sponsors, or administers on behalf of a User, as applicable, one or more
Programs for the provision of health care services to
Participants accessing the Network.” (MultiPlan
Agreement 1.) Further, “MPI agrees that it has entered into agreements with Clients that specify that
the right to access the Network, including access to
the Contract rates, shall be subject to the terms of
this Agreement.” (MultiPlan Agreement 6.) However, “MPI does not determine benefits eligibility or
availability for Participants and does not exercise
any discretion or control as to Program assets, with
respect to policy, payment, interpretation, practices,
or procedures.” (MultiPlan Agreement 6.)
IVS also maintained an agreement with Three
Rivers Provider Network (“TRPN”), entered into on
March 2, 2009. (PSF ¶ 72; Casillas Decl., Ex. 10 (the
“TRPN Agreement”), ECF No. 44–11.) Under the
TRPN Agreement, IVS agreed to accept 95% of its
billed charges as payment for services provided to
patients accessed through the TRPN Network. (PSF
¶ 73.) MultiPlan has a contract with TRPN allowing
MultiPlan access to the TRPN Network. (Decl. Marc
E. Rohatiner in Supp. MFL (“Rohatiner Decl.”) ¶ 4,
ECF No. 34.)
II. Defendant’s Motion for Summary Judgment
Defendant makes three primary arguments in
support of the MSJ: (1) Plaintiff’s claims for breach of
contract are barred by the statute of limitations; (2)
Plaintiff has no standing to sue as a non-party to the
Concentra Agreement; and (3) Defendant has not
breached the Concentra Agreement as a matter of
law. (See generally MSJ.) As the issue of summary

App. 19
judgment is resolved on Defendant’s first two arguments, the Court need not reach Defendant’s third
argument.
Rule 56(a) mandates that “the court shall grant
summary judgment if the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The moving party bears the initial burden of establishing the absence of a genuine
issue of material fact. See Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). But if the nonmoving party
bears the burden of proving the claim or defense, the
moving party need not produce any evidence or prove
the absence of a genuine issue of material fact. See
id. at 325. Rather, the moving party's initial burden
“may be discharged by showing–that is, point out to
the district court–that there is an absence of evidence
to support the nonmoving party's case.” Id. (internal
quotations omitted).
Once the moving party meets its initial burden,
the “party asserting that a fact cannot be or is genuinely disputed must support the assertion.” Fed. R.
Civ. P. 56(c)(1). “The mere existence of a scintilla of
evidence in support of the plaintiff's position will be
insufficient; there must be evidence on which the jury could reasonably find for the plaintiff.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 252 (1986); accord Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986) (“[O]pponent must do
more than simply show that there is some metaphysical doubt as to the material facts.”). Further, “[o]nly
disputes over facts that might affect the outcome of
the suit ... will properly preclude the entry of summary judgment [and] [f]actual disputes that are irrelevant or unnecessary will not be counted.” Ander-

App. 20
son, 477 U.S. at 248; see also Sanders v. Douglas, 565
F. Supp. 78, 80 (C.D. Cal. 1983) (disregarding conclusory allegations of affidavit because “legal conclusions are totally ineffectual, and are not to be given
consideration or weight whatsoever” on summary
judgment). At the summary judgment stage, a court
does not make credibility determinations or weigh
conflicting evidence. See Anderson, 477 U.S. at 249.
A court is required to draw all inferences in a light
most favorable to the nonmoving party. Matsushita,
475 U.S. at 587.
A. The Statute of Limitations for Breach of
Contract Claims
1. Legal Standard
a. Time of breach
[*6] Under California law, a claim for breach of
written contract must be filed within four (4) years of
the time of accrual. Cal. Civ. Proc. Code. § 337(1).
“A cause of action for breach of contract accrues at
the time of breach, when then starts the limitations
period running.” Cochran v. Cochran, 56 Cal. App.
4th 1115, 1120, 66 Cal. Rptr. 2d 337 (1997). “It is
well-established that where a contract does not specify a time for performance, the party is obliged to perform within a reasonable time, and the statute of
limitations begins to run when a ‘reasonable time’
has expired without performance.” IV Sols., Inc. v.
United Healthcare, No. CV 15–01418 DDP (SSx),
2015 WL 4127823, at *2 (C.D. Cal. July 7, 2015)
(quoting Cal. Civ. Code § 1657; Caner v. Owners’ Realty Co., 33 Cal. App. 479, 481, 165 P. 727 (1917)).
The statute of limitations generally commences when
a party knows or should have known the facts essen-

App. 21
tial to the claim. See Gutierrez v. Mofid, 39 Cal.3d
892, 896–897 (1985).
b. Equitable tolling/Equitable estoppel
“Equitable tolling is a judge-made doctrine which
operates independently ... to suspend or extend a
statute of limitations as necessary to ensure fundamental practicality and fairness.” Lantzy v. Centex
Homes, 31 Cal. 4th 363, 370 (2003). In the context of
insurance, “equitable tolling runs after a timely
claim for loss is tendered to the insurer while the insurer investigates the claim, until coverage is denied.” Flintkote Co. v. Gen. Acc. Assur. Co. of Canada, 480 F. Supp. 2d 1167, 1178 (N.D. Cal. 2007) (citing Prudential–LMI Commercial Ins. v.Super. Ct., 51
Cal.3d 674, 693 (1990)). “Once an unequivocal denial
has been made, the insured's later requests for reconsideration do not serve the purposes of and do not
extend the period of equitable tolling.” Singh v. Allstate Ins. Co., 63 Cal. App. 4th 135, 148. Further,
“an insurer's willingness to consider additional evidence, or provide a voluntary appeal process, after it
[has] given unequivocal notice that a claim was rejected [does] not toll the limitations period.” Vishva
Dev, M.D., Inc. v. Blue Shield of California Life &
Health Ins. Co., 2 Cal. App. 5th 1218, 1224 (Ct. App.
2016). However, because insurers are not obligated
to reconsider a denied claim, equitable tolling may
apply in the context of a previously denied claim
“when the insurer has agreed to reopen and reinvestigate the claim.” Ashou v. Liberty Mut. Fire Ins. Co.,
138 Cal. App. 4th 748, 762 (2006).
Application of the doctrine of equitable tolling
must be “consistent with the policies underlying the

App. 22
claim and limitation periods – e.g., the insurer is entitled to receive prompt notice of a claim and the insured is penalized for waiting too long after discovery
to make a claim.” Id. at 757 (citing Prudential–LMI,
51 Cal.3d at 692). “As with other general equitable
principles, application of the equitable tolling doctrine requires a balancing of the injustice to the
plaintiff occasioned by the bar of his claim against
the effect upon the important public interest or policy
expressed by the ... limitations statute.” Lantzy, 31
Cal. 4th at 371.
An estoppel “arises as a result of some conduct by
the defendant, relied on by the plaintiff, which induces the belated filing of the action.” Prudential–
LMI, 51 Cal.3d at 689–90. An “insurer that leads its
insured to believe that an amicable adjustment of the
claim will be made, thus delaying the insured's suit,
will be estopped from asserting a limitation defense.”
Id. at 690 (citing Benner v. Industrial Accident
Comm’n., 26 Cal.2d 346, 350 (1945); Lagomarsino v.
San Jose Abstract & Title Insurance Co., 178
Cal.App.2d 455, 462 (1960)).
2. Discussion
[*7] Defendant argues that Plaintiff is barred by
the four-year statute of limitations for breach of contract claims based on Defendant’s unequivocal denial
of all of Plaintiff’s claims in EOBs dating on or before
January 19, 2012. (MSJ 6–7.) Defendant relies on
Vishva Dev, which held that a health insurance company’s EOBs constituted an unequivocal denial of the
plaintiff’s claims despite language in the EOBs that
stated that “[i[f you have questions about your claim
or your claim has been denied and you believe that
additional information will affect the processing of

App. 23
your claim, you should contact [the] Customer Service Department.” 2 Cal. App. 5th 1218, 1225 (Ct.
App. 2016). Relying on Singh, the court concluded
that “[t]he extension of a courtesy, to look at anything else that plaintiffs might have to offer, did not
render the denial equivocal” as there was nothing
“tentative or conditional” about the denials. Id. (citing Singh, 63 Cal.App.4th at 143.)
Plaintiff argues that Defendant’s denials were
not unequivocal, as the EOBs included language that
asked claimants to “please review the procedure
codes and notify us if any unusual treatments were
performed or if there is additional information clarifying the services and/or charges.” (MSJ Opp’n 9.)
In addition, one of the EOB remark codes states that
“[w]e are unable to determine benefits until we receive the medical records/billing information requested from the provider. When this information is
received, we will reconsider the claim for benefits.”
(MSJ Opp’n 9.) Plaintiff also argues that even if the
EOBs constitute an unequivocal denial, the doctrines
of equitable tolling and equitable estoppel apply as
Defendants agreed to reprocess Plaintiff’s claims in
September of 2012 and did not issue a final denial
until January 8, 2013. (MSJ Opp’n 9–14.)
The Court agrees with Defendant that the majority of the EOBs constitute unequivocal denials. The
language requesting that Plaintiff “review the procedure codes” and “notify if any unusual treatments
were performed” were the exact kinds of “extension of
courtesy” described in Vishva Dev. Defendant did
not explicitly agree to reconsider the claims if new
information were provided and was under no obligation to adjust the amount paid. The Court holds that
the EOBs issued for the ‘215 claim and ‘245–‘252

App. 24
claims constitute an unequivocal denial of Plaintiff’s
claims.
The remark code for the ‘185 claim, however, includes an explicit promise to “reconsider the claim for
benefits” once requested information was received
from the provider. While presumably Defendant did
not intend for Plaintiff to be allowed an indefinite period of time to submit this information, a time limit
is not apparent on the face of the EOB or in any other evidence submitted by Defendant to this action.
Full payment for the ‘185 claim was therefore not
unequivocally denied until October 12, 2012, when
the United representative informed IVS that
$1,676.76 had been paid to IVS on October 11, 2012
in satisfaction of the ‘185 claim and that IVS would
need to submit a letter of appeal for any further disputes.
Under California law, “separate, recurring invasions of the same right can each trigger their own
statute of limitations.” Aryeh v. Canon Bus. Sols.,
Inc., 55 Cal. 4th 1185, 1198 (2013). Known as “continuous accrual,” this doctrine applies “whenever
there is a continuing or recurring obligation” and
“each new breach of such an obligation provides all
the elements of a claim–wrongdoing, harm, and causation.” Id. However, “the theory of continuous accrual supports recovery only for damages arising
from those breaches falling within the limitations period.” Id. As Defendant’s alleged breach is based on
Defendant’s ongoing obligation to pay the contract
rate for submitted claims, and each of Defendant’s
denials could have constituted breach, denial of the
‘185 claim is an independently actionable wrong that
triggers its own statute of limitations. As Plaintiff’s
filing date of August 11, 2016 is within the four-year

App. 25
statute of limitations commenced on October 11,
2012, Plaintiff is not barred from bring an action
based solely on the ‘185 claim.
[*8] As to Plaintiff’s arguments for equitable estoppel and equitable tolling, the Court is skeptical
that the same principles of equity apply where Plaintiff had over three years from the date of the alleged final denial to file suit as compared to the
months for a one-year statute of limitations in Plaintiff’s cited cases.
See IV Sols., Inc. v. United
Healthcare, No. CV 15–01418–DDP (SSx), 2015 WL
4127823, at *3 (C.D. Cal. July 7, 2015) (“the mere
possibility of settlement, or ongoing efforts to settle,
do not toll the statute of limitations – especially
where the limitations period is lengthy enough to allow for attempts at settlement prior within the period”); Transport Ins. Co. v. TIG Ins. Co., 202
Cal.App.4th 984 (2012) (expressing doubt that equitable tolling could apply to a contract claim, “in light
of the lengthy statute of limitations involved”);
Lantzy, 31 Cal.4th at 380 (“Because plaintiffs had
three or four years after discovery, and up to ten
years after the project's completion, to bring their
suits for latent construction defects, many of the concerns that might warrant equitable tolling are ameliorated.”). However, the Court need not reach this
argument as Plaintiff’s other claims are barred regardless of whether the Court does or does not apply
the doctrine of equitable tolling.
“[T]he effect of equitable tolling is that the limitations period stops running during the tolling event,
and begins to run again only when the tolling event
has concluded. As a consequence, the tolled interval,
no matter when it took place, is tacked onto the end
of the limitations period, thus extending the deadline

App. 26
for suit by the entire length of time during which the
tolling event previously occurred.” Lantzy, 31 Cal.
4th at 370–71. As held above, the ‘215 and ‘245–‘252
claims were unequivocally denied as of January 12,
2012, the date the last EOB was issued for these
claims. Absent any tolling period, the last date for
Plaintiff to file suit would be January 12, 2016.
Plaintiff alleges that Defendant was reprocessing
Plaintiff’s claims as early as August 11, 2012, and
that final denial was not issued until January 8,
2013. (MSJ Opp’n 9–14.) At most, this represents a
five month tolling period that would extend Plaintiff’s deadline until June 15, 2016, two months shy of
Plaintiff’s August 11, 2016 filing date. Moreover,
Plaintiff’s claims of estoppel do not convince where
Plaintiff was not diligent in pursuing its suit against
Defendant for over three years following the ultimate
denial of its claim.
The Court holds that IVS’ claims for breach of
contract are barred by the statute of limitations to
the extent that they rely on the ‘215 claim or the
‘245–‘252 claims, but that the statute of limitations
does not bar a claim for breach of contract based on
the ‘185 claim as a matter of law.
B. Plaintiff’s Standing to Bring Suit as a
Third-Party Beneficiary
1. Legal Standard
“A contract, made expressly for the benefit of a
third person, may be enforced by him at any time before the parties thereto rescind it.” Cal. Civ. Code §
1559. A third party “may qualify as a beneficiary
under a contract where the contracting parties must
have intended to benefit that third party and such
intent appears on the terms of the contract.” Jones v.

App. 27
Aetna Cas. & Sur. Co., 26 Cal. App. 4th 1717, 1724
(1994). If the terms of a contract “necessarily require the promisor to confer a benefit on a third person, the contract, and hence the parties thereto, contemplate a benefit to the third person. The parties
are presumed to intend the consequences of a performance of the contract.” Johnson v. Holmes Tuttle
Lincoln–Mercury, Inc., 160 Cal. App. 2d 290, 297
(1958). “Generally speaking, a health care service
provider’s agreement to pay for medical care is intended to benefit the enrollees, not treating physicians with whom there is no contractual relationship.” Ochs v. PacifiCare of California, 115 Cal. App.
4th 782, 795 (2004). “Under ordinary circumstances,
noncontracting health care providers ... would be only incidental beneficiaries of a contractual agreement
to pay for an enrollee’s medicare.” Id.; see also IV Solutions., Inc. V. United HealthCare Servs., Inc., No.
CV 16–09598–MWF (AGRx), 2017 WL 3018079 (C.D.
Cal. 2017).
2. Discussion
[*9] Defendant argues that Plaintiff does not
have standing to bring suit for breach of the Concentra Agreement because Plaintiff is not a party to the
agreement and is not a third-party beneficiary to the
agreement. (MSJ 13–14.) Defendant points to the
portion of the Concentra Agreement that prohibits
third-party rights as evidence that the agreement
was not intended to benefit third parties, and argues
that any benefit to IVS under the agreement was only incidental. (MSJ 13–14.)
Plaintiff argues that inclusion of the third-party
disclaimer is irrelevant as the contract as a whole
clearly evidences the parties’ intent to benefit medi-

App. 28
cal providers. (MSJ Opp’n 16–17.) Plaintiff primarily relies on Aetna Life Ins. Co. v. Huntingdon Valley
Surgery Ctr., which held that the question of a medical provider’s third party beneficiary status under a
similar agreement could not be resolved on a motion
to dismiss, despite the inclusion of a third party disclaimer in the contract. No. CIV.A. 13–03101, 2015
WL 1954287, at *7 (E.D. Pa. Apr. 30, 2015). The
Aetna court cited the portions of the agreement
which obligated Aetna to “reprice the claims to reflect the Negotiated Rate” and “pay [the medical provider] at the Negotiated Rate for Covered Services
rendered to Members.” Id. at *8. The court noted
that “[i]t would be difficult to imagine a beneficiary
to be more intended than the third party a contracting party agrees to pay for services rendered” thus
creating an ambiguity of whether or not the thirdparty disclaimer applied to medical providers. Id. at
*8–*9 (citing Temple Univ. Hosp., Inc. v. Grp. Health,
Inc., 413 F.Supp.2d 420, 425 (E.D.Pa.2005)).
Plaintiff’s argument fails. Under California law,
the intended beneficiaries of agreements of this nature are generally the enrollees, not the providers.
Ochs, 115 Cal. App. 4th at 795. Plaintiff does not cite
any special circumstances which would evidence an
intent to make the providers the beneficiaries; in
fact, there is much evidence to the contrary. Unlike
in Aetna, PacifiCare is not required to issue payments under the Concentra Agreement to providers
as the agreement expressly disclaims any obligation to do so. The Concentra Agreement only requires that United “make commercially reasonable
efforts to request [MultiPlan] services[.]” (Concentra
Agreement 16.) It further states that “[d]espite these
efforts, if United determines, at any time during the

App. 29
adjudication process, that the claim is NOT payable
(in part or in full) or is not eligible for services, United reserves the right, at its sole discretion, to ... finalize the adjudication of such claim as it deems appropriate.” (Concentra Agreement 16.) As such, the
contract does not necessarily require PacifiCare to
confer a benefit on IVS, a fundamental aspect of obtaining third-party beneficiary status. See Johnson,
160 Cal. App. 2d at 297. Read in conjunction with
the third-party disclaimer, IVS is foreclosed from
claiming third-party beneficiary status under the
Concentra Agreement as a matter of law.
III. Plaintiff’s Motion for Leave to Amend the
Complaint
Plaintiff also moves for leave to file a Second
Amended Complaint (“SAC”) in order to assert a theory of liability for breach of contract based on an
agency relationship between MultiPlan and PacifiCare. (MFL 1.) Plaintiff seeks to assert this new
theory based on (1) Plaintiff’s discovery a few days
prior to July 14, 2017, that PacifiCare did not have a
contract with TRPN but instead had a contract with
MultiPlan that gave it access to TRPN’s network;
and (2) Plaintiff’s review of Plaintiff’s own contract
with MultiPlan in which MultiPlan acted as Defendant’s agent and expressly agreed on behalf of Defendant that Defendant would be obligated to pay
Plaintiff the MultiPlan contract rate. (Decl. of Marc
E. Rohatiner in Supp. MFL (“Rohatiner MFL Decl.”)
¶¶ 4–6, ECF No. 34.)
A. Legal Standard
[*10] Once 21 days after service of a pleading has
passed, “a party may amend its pleading only with
the opposing party's written consent or the court's

App. 30
leave. The court should freely give leave when justice so requires.” Fed. R. Civ. P. 15(a)(2). The Ninth
Circuit considers five factors in determining whether
leave to amend should be given: “(1) bad faith, (2)
undue delay, (3) prejudice to the opposing party, (4)
futility of amendment; and (5) whether plaintiff has
previously amended his complaint.” Learjet, Inc. v.
ONEOK, Inc., 715 F.3d 716, 738 (9th Cir. 2013) (citation omitted). Leave to amend lies “within the sound
discretion of the trial court,” and the court “must be
guided by the underlying purpose of Rule 15–to facilitate decision on the merits rather than on the pleadings or technicalities.” DCD Programs, Ltd. v. Leighton, 833 F.2d 183, 185–86 (9th Cir. 1987) (quoting
United States v. Webb, 655 F.2d 977, 979 (9th Cir.
1981)).
B. Discussion
1. Bad Faith
There is no indication or evidence of bad faith by
Plaintiff in filing the MFL. The Court finds that this
factor weighs in favor of amendment.
2. Undue Delay
Plaintiff argues that there was no undue delay in
filing the MFL because “[i]mmediately upon learning
of the contractual relationship between PacifiCare
and MultiPlan – and absence of a contractual relationship between PacifiCare and TRPN–IV Solutions
sought to amend its complaint, first, by requesting
PacifiCare’s agreement to such a stipulation; and
when such agreement was not forthcoming, by filing
this motion for leave to amend.” (MFL 3.) Plaintiff
also notes that the parties had stipulated to a continuation of the October 24, 2017 trial date and associated deadlines in light of the new discovery on July

App. 31
21, 2017, a little over one week after Plaintiff learned
this information. (Stipulation to Continue Trial and
Associated Deadlines, ECF No. 29.) The Court, however, denied the parties’ stipulation on August 3,
2017. (Order Denied re Stipulation, ECF No. 31.)
Despite this, and despite the looming trial deadline,
Plaintiff submitted the MFL almost three weeks later on August 21, 2017. The Court finds that this factor does not weigh in favor of amendment.
3. Prejudice to the Opposing Party
Plaintiff concedes that the proximity of the trial
and the cut-off of discovery will prejudice Defendant’s
ability to address the new theories asserted in the
SAC. (MFL Reply 2.) Plaintiff argues, rather, that
the proper course of action for the Court, given its
purpose of facilitating decisions on the merits, is to
continue the trial deadlines and give Defendant an
adequate amount of time to respond. (MFL Reply 2–
3.) As Plaintiff does not deny that granting the
amendment as is will cause undue prejudice to Defendant, this factor weighs against amendment.
4. Futility of the Amendment
Although plaintiffs are usually afforded the opportunity to test their claims on the merits, “futile
amendments should not be permitted.” Klamath–
Lake Pharm. Ass'n v. Klamath Med. Serv. Bureau,
701 F.2d 1276, 1293 (9th Cir. 1983). It is not an
abuse of discretion to refuse a request to amend
when the proffered amendment is merely a “restatement of the same facts in different language or the
reassertion of a claim previously determined.” Kasey
v. Molybdenum Corp. of Am., 467 F.2d 1284, 1285
(9th Cir. 1972).

App. 32
As described above, all of Plaintiff’s claims save
the ‘185 claim are barred from recovery by the statute of limitations. The ‘185 claim concerns services
rendered to CM on July 11, 2011. Plaintiff’s contract
with MultiPlan and its corresponding benefits did
not go into effect until September 1, 2011. The ‘185
claim would therefore not have been processed under
Plaintiff’s contract with MultiPlan, but under Plaintiff’s contract with TRPN. Indeed, all of the claims
IVS cites to that PacifiCare processed prior to September 1, 2011 include the statement that “[t]he
claim was processed according to the contracted rate
with TRPN Three Rivers Provider Network.” (First
EOB 13.) Plaintiff’s claim that MultiPlan represented itself as an agent of PacifiCare in the terms of its
agreement with IVS is therefore irrelevant, and leave
to amend would be futile.
5. Previous Amendments
[*11] While Plaintiff has previously amended the
Complaint, the facts necessary to assert Plaintiff’s
new theory were not available at the time of previous
amendment. See Jackson, 902 F.2d at 1388; United
States v. Pend Oreille Pub. Util. Dist. No. 1, 926 F.2d
1502, 1511 (9th Cir. 1991). This factor is neutral.
The Court finds, however, that Defendants would
be undeniably prejudiced by this amendment and
leave to amend would be futile. The factors in total
weigh strongly against amendment.
IV. CONCLUSION
For the foregoing reasons, the Court GRANTS
Defendant Pacificare Life and Health Insurance
Company’s Motion for Summary Judgment as to
Plaintiff’s remaining causes of action and DENIES
Plaintiff IV Solutions, Inc.’s Motion for Leave to File

App. 33
Second Amended Complaint. Defendant shall lodge
a proposed judgment within seven (7) days of the issuance of this Order. The parties’ pending Motions
in Limine will be DENIED as moot.
IT IS SO ORDERED.
Dated: October 6, 2017.
/s/ S. James Otero
S. JAMES OTERO
UNITED STATES DISTRICT JUDGE

App. 34
APPENDIX – PART C
United States Supreme Court
(Order List: 589 U.S.)

THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns relating to COVID-19, the following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari due on or after the date
of this order is extended to 150 days from the date of
the lower court judgment, order denying discretionary review, or order denying a timely petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to Rule 30.4 will ordinarily
be granted by the Clerk as a matter of course if the
grounds for the application are difficulties relating to
COVID-19 and if the length of the extension requested is reasonable under the circumstances. Such motions should indicate whether the opposing party has
an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the Clerk will entertain motions to delay distribution of a petition for writ of certiorari where the grounds for the motion are that the
petitioner needs additional time to file a reply due to
difficulties relating to COVID-19. Such motions will

App. 35
ordinarily be granted by the Clerk as a matter of
course if the length of the extension requested is reasonable under the circumstances and if the motion is
actually received by the Clerk at least two days prior
to the relevant distribution date. Such motions
should indicate whether the opposing party has an
objection.
IT IS FURTHER ORDERED that these modifications to the Court’s Rules and practices do not apply
to cases in which certiorari has been granted or a direct appeal or original action has been set for argument.
These modifications will remain in effect until
further order of the Court.

App. 36
APPENDIX – PART D
Pages 331 – 337 from the Excerpts of the Record
filed in the Ninth Circuit on April 20, 2018.
United States Bankruptcy Court
Central District of California
Western Division
IV SOLUTIONS, INC., a California corporation,
Plaintiff
v.
PACIFICARE LIFE AND HEALTH
INSURANCE COMPANY, an Indiana corporation;
and DOES 1 through 30, inclusive, Defendants.
Case No. 2:16-cv-07153-SJO-MRW

Before: OTERO, United States District Court
Judge.
PLAINTIFF IV SOLUTIONS, INC.’S NOTICE
OF REQUEST AND REQUEST FOR JUDICIAL
NOTICE IN OPPOSITION TO DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT OR IN
THE ALTERNATIVE PARTIAL SUMMARY
JUDGMENT

App. 37
Pursuant to Federal Rules of Evidence, Rule 201,
Plaintiff IV Solutions, Inc. (“Plaintiff”) hereby respectfully requests that this Court take judicial notice of the following documents, all of which have
been filed in connection with this and other actions:
1. The opposition of Plaintiff IV Solutions, Inc. to
a summary judgment motion in the case IV Solutions, Inc. v. TakeCare Insurance Company, Inc.,
United States Central District of California Case No.
2:13-cv-4592-JFW, a true and correct copy of which is
attached as Exhibit 11.
2. Excerpts of the Network Access Agreement
between United HealthCare Insurance Company and
Multiplan, Inc. and TRPN filed in the case IV Solutions, Inc. v. United HealthCare Services, Inc., United
States Central District of California Case No. 2:16cv-09598-MWF, a true and correct copy of which is
attached as Exhibit 12.
3. An Explanation of Benefits authored by
PacifiCare, filed as an exhibit by PacifiCare in the
case IV Solutions, Inc. v. Pacificare Life and Health
Insurance Co., United States Central District of California Case No. 2:16-cv-07153-SJOMRWx, a true and
correct copy of which is attached as Exhibit 8.
The Court may take notice of proceedings and filings in this court or other courts. U.S. ex rel. Robinson Rancheria Citizens Council v. Borneo, Inc., 971 F.
2d 244, 248 (9th Cir. 1992).
Dated: September 1, 2017
/s/ Eric Levinrad
ERIC LEVINRAD
Attorney for Plaintiff IV SOLUTIONS, INC.

App. 38

EXHIBIT 8

App. 39

EXHIBIT A

App. 40

App. 41

App. 42

